2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Le ga 1 Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com.

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-742

JAMES BAILEY-SNYDER,
Petitioner,
Vv.
UNITED STATES,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF FORMER
CORRECTIONS DIRECTORS AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5975 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Subscribed and sworn to before me this 9th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska + Le ,
My Commission Expires Nov 24, 2020 2

Notary Public Affiant

 

39227
